HHS/OIG, Audit -"Audit of Pennsylvania Blue Shield's Unfunded Pension Costs for the Period Covering 1992 Through
1996,"(A-07-04-00173)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Pennsylvania Blue Shield's Unfunded Pension Costs for the Period Covering 1992 Through 1996," (A-07-04-00173)
November 5, 2004
Complete
Text of Report is available in PDF format (807 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to:  (1) determine if the accumulated unfunded pension costs identified in our
prior review (A-07-93-00713) have been accounted for properly, (2) determine if pension costs for plan years 1992 through
1996 were funded in accordance with Federal Acquisition Regulations (FAR) and the Cost Accounting Standards (CAS), and
(3) identify and properly account for any additional accumulated unfunded pension costs, including the identification of
the unallowable and reassignable portions of the accumulated unfunded pension costs.  We found that Pennsylvania Blue
Shield (PBS) properly accounted for the accumulated unfunded pension costs identified in our prior review and properly
executed its Advance Agreement.  Additionally, PBS funded the pension costs for plan years 1992 through 1996 in accordance
with FAR and CAS.  However, PBS did not correctly identify nor properly account for the additional accumulated unfunded
pension costs due to the lack of adequate policies and procedures.  We recommended that PBS decrease the accumulated
reassignable pension costs of the Medicare segment by $2,154,481 as of December 31, 1996.